TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Collection Field Function Procedures
                         Were Not Always Followed When
                       Assessing Taxes on Businesses That
                            Have Not Filed Tax Returns



                                      September 17, 2012

                              Reference Number: 2012-30-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


COLLECTION FIELD FUNCTION                              evidence for the basis of assessments. In
PROCEDURES WERE NOT ALWAYS                             addition, in 10 (10 percent) cases, ROs did not
FOLLOWED WHEN ASSESSING TAXES                          allow, or there was no evidence to support the
ON BUSINESSES THAT HAVE NOT                            allowance of, the required 30 calendar days for
                                                       taxpayers to respond to proposed assessments
FILED TAX RETURNS
                                                       prior to the IRS processing the 6020(b) returns.
                                                       TIGTA also determined that during Calendar
Highlights                                             Year 2008, taxpayers with stand-alone 6020(b)
                                                       assessments (assessments made in which the
Final Report issued on                                 taxpayers had potential delinquent returns due
September 17, 2012                                     but no outstanding tax liabilities) were less
                                                       compliant in subsequent years than taxpayers
Highlights of Reference Number: 2012-30-110            without 6020(b) assessments. However, a more
to the Internal Revenue Service Commissioner           in-depth study of delinquent returns in which the
for the Small Business/Self-Employed Division.         use of I.R.C. § 6020(b) authority was considered
                                                       but not used may be needed to better
IMPACT ON TAXPAYERS                                    understand these results. The IRS does not
                                                       track subsequent filing compliance when
The IRS has the ability to prepare returns and
                                                       I.R.C. § 6020(b) authority is used.
assess taxes under the authority of Internal
Revenue Code (I.R.C.) Section (§) 6020(b)              WHAT TIGTA RECOMMENDED
when business taxpayers do not file required
returns or file false or fraudulent returns.           TIGTA recommended that the Director,
However, case histories of I.R.C. § 6020(b)            Enterprise Collection Strategy, Small Business/
business assessments made by Collection Field          Self-Employed Division: 1) develop an internal
function revenue officers (RO) did not always          control to help ensure ROs properly document a
contain the proper documentation to support the        complete explanation for the basis of 6020(b)
reason for the assessment, which increases the         assessments, 2) develop an internal control to
risk of an improper assessment. In addition,           allow taxpayers 30 calendar days to respond to
ROs did not always allow taxpayers 30 calendar         proposed assessments before submitting
days to respond to proposed assessments prior          returns for processing, and 3) establish a
to processing the 6020(b) returns, which               methodology to compare actual results with
potentially violates the taxpayers’ rights.            management’s anticipated benefit of improving
                                                       filing compliance when I.R.C. § 6020(b) authority
WHY TIGTA DID THE AUDIT                                is used for business taxpayers.
Collection Field function 6020(b) assessments          In their response to the report, IRS officials
have increased significantly in recent years. In       agreed with the recommendations and plan to:
Fiscal Year 2011, $1.64 billion in 6020(b)             1) initiate a change to the Integrated Collection
assessments entered the collection stream.             System to help ensure ROs document the
TIGTA initiated this audit to evaluate the impact      required basis for the 6020(b) assessment,
of the Collection Field function’s use of              2) initiate a change to the Integrated Collection
I.R.C. § 6020(b) authority on taxpayer                 System to help ensure ROs allow taxpayers
compliance and to determine whether                    30 calendar days to respond to the proposed
employees are using the proper procedures to           assessment before submitting the prepared
assess tax liabilities.                                returns for processing, and 3) request a
                                                       research project to measure the effectiveness of
WHAT TIGTA FOUND                                       the Collection Field function I.R.C.§ 6020(b)
TIGTA reviewed a statistical sample of                 program on future filing compliance of business
96 6020(b) assessments and determined that             taxpayers and weigh the results against ultimate
ROs followed many of the required procedures.          case resolution to determine if any program
However, in 20 (21 percent) cases, there was no        changes are warranted.
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 17, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Collection Field Function Procedures Were Not
                                 Always Followed When Assessing Taxes on Businesses That Have Not
                                 Filed Tax Returns (Audit # 201130017)

 This report presents the results of our review to evaluate the impact of the Small Business/
 Self-Employed Division1 Collection Field function’s use of Internal Revenue Code Section
 6020(b)2 authority on taxpayer compliance and to determine whether employees are using the
 proper procedures to assess tax liabilities. This audit is included in our Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (Ext. 128).




 1
     See Appendix V for a glossary of terms.
 2
     26 U.S.C. § 6020(b)
                                    Collection Field Function Procedures Were Not
                                     Always Followed When Assessing Taxes on
                                     Businesses That Have Not Filed Tax Returns




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Collection Field Function 6020(b) Assessments Have Significantly
          Increased in Recent Years ............................................................................. Page 4
          Revenue Officers Followed Many of the Required Procedures for
          Processing 6020(b) Assessments .................................................................. Page 8
          Evidence Was Not Always Available to Support the Basis of
          6020(b) Assessments .................................................................................... Page 9
                    Recommendation 1:........................................................ Page 10

          Revenue Officers Did Not Always Allow 30 Calendar Days for
          Taxpayers to Respond Prior to Processing 6020(b) Returns ........................ Page 10
                    Recommendation 2:........................................................ Page 11

          Many Taxpayers Remain Noncompliant After 6020(b) Assessments
          Have Been Made ........................................................................................... Page 12
                    Recommendation 3:........................................................ Page 14


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Glossary of Terms ................................................................. Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 24
         Collection Field Function Procedures Were Not
          Always Followed When Assessing Taxes on
          Businesses That Have Not Filed Tax Returns




                 Abbreviations

CFf       Collection Field function
CNC       Currently Not Collectible
FY        Fiscal Year
ICS        Integrated Collection System
I.R.C.    Internal Revenue Code
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
RO        Revenue Officer
                                 Collection Field Function Procedures Were Not
                                  Always Followed When Assessing Taxes on
                                  Businesses That Have Not Filed Tax Returns




                                              Background

The Internal Revenue Service (IRS) has the authority to prepare returns and assess taxes under
Internal Revenue Code (I.R.C.) Section (§) 6020(b)1 when taxpayers do not file required returns
or file false or fraudulent returns. This authority includes both individual and business taxpayers,
and the IRS has specific programs for each of them.
The programs developed for individual taxpayers are the Substitute for Return Program and its
automated version, the Automated Substitute for Return Program. Although assessments are
proposed under the Substitute for Return Program by revenue officers (RO)2 and various other
compliance employees, the Automated Substitute for Return Program is the key compliance
program for taxpayers who have not filed individual income tax returns but owe a significant
income tax liability. The purpose of both programs is to assess the correct tax liability by either
securing a voluntary income tax return from the taxpayer or by computing tax, interest, and
penalties based upon the IRS’s internal information.
The parallel program for business taxpayers is referred
                                                                Business returns may be prepared
to as simply 6020(b). Business returns are prepared
                                                               and assessed under I.R.C. § 6020(b)
and assessed for entities when: 1) the business appears            authority when it appears the
to be liable for a return, 2) the person required to file       business is liable for a return, the
the business return does not file it, and 3) attempts to        return is not filed, and attempts to
secure the return fail. The 6020(b) assessments on                 secure the return have failed.
business returns are generally proposed in one of two
ways:
          Systemically through the Automated 6020(b) Program. This program uses
           information (such as wages and taxes) from the taxpayer’s last return filed as the basis
           for the assessment.
          Manually by ROs and other compliance employees (such as revenue agents). ROs
           may secure additional information from the taxpayer or third parties to help determine
           a basis for the assessment.
The Automated 6020(b) Program is limited to employment tax returns with last return
assessments and/or credits between $250 and $1,500, and extending back only three years from
the current year. Despite this limitation, most assessments of business returns are made through
the automated program. Figure 1 shows that in Fiscal Year (FY) 2011, 153,347 (71 percent) of
216,150 6020(b) business assessments were created through the Automated 6020(b) Program.

1
    26 U.S.C. § 6020(b)
2
    See Appendix V for a glossary of terms.
                                                                                               Page 1
                               Collection Field Function Procedures Were Not
                                Always Followed When Assessing Taxes on
                                Businesses That Have Not Filed Tax Returns



        Figure 1: Business Assessments That Entered the Collection Stream




        Source: Our analysis of Collection Activity Report 5000-2/242.
        *Unknown source of assessment due to IRS case processing errors.

Employment tax returns that are not in the $250 to $1,500 range are assessed manually by the
Collection Field function (CFf). The 6020(b) assessments made by the CFf account for the
majority of dollars assessed. Specifically, in FY 2011, $1.07 billion (65 percent) of $1.64 billion
in 6020(b) assessments that entered the collection stream3 were manually created in the CFf by
ROs. This review focused only on manually processed 6020(b) business assessments in the CFf
(hereafter referred to as 6020(b)).
When the IRS pursues a case involving a business nonfiler, it will usually send the taxpayer one
or two notices concerning the return in question. If the taxpayer fails to resolve the situation
during the delinquency notice process, a Taxpayer Delinquency Investigation (hereafter referred
to as a delinquent return investigation) is created. The delinquent return investigation is then
assigned a case prioritization code that determines where it will be assigned to be worked. The
case may be assigned to the CFf, where an RO will begin the investigation. Before using
I.R.C. § 6020(b) authority to secure a return on a delinquent return investigation, ROs consider a
number of factors, including:
         Prior history of noncompliance.
         Existence of income from illegal sources.


3
 Assessments that enter the collection stream receive a balance due notice. Some assessments never enter the
collection stream because they may have credit balances or liabilities may be resolved prior to that point.
                                                                                                          Page 2
                           Collection Field Function Procedures Were Not
                            Always Followed When Assessing Taxes on
                            Businesses That Have Not Filed Tax Returns



      Effect upon voluntary compliance.
      Anticipated revenue and collectability in relation to the time and effort required to
       determine tax due.
ROs close some delinquent return investigations without the use of I.R.C. § 6020(b) authority.
For example, some cases may be closed because the nonfiling is not willful and:
      There would be no tax due on the delinquent return.
      There would be minimal net tax due on the return.
      The cost to the IRS to secure a return would exceed anticipated revenue.
After being assigned a delinquent return investigation, ROs conduct a field call to determine if
the taxpayer’s business is in operation and paying wages to its employees. These conditions are
indications that the taxpayer is potentially liable for the delinquent return. ROs then establish a
specific date for filing the delinquent return, and if the taxpayer fails to file any required
employment, excise, and/or partnership tax returns by the specified date, ROs may prepare the
returns under I.R.C. § 6020(b) authority using the Integrated Collection System (ICS).
This review was performed at the IRS Small Business/Self-Employed Division’s Headquarters
office in New Carrollton, Maryland, and the CFf office in Baltimore, Maryland, during the
period August 2011 through April 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                               Page 3
                              Collection Field Function Procedures Were Not
                               Always Followed When Assessing Taxes on
                               Businesses That Have Not Filed Tax Returns




                                    Results of Review

Collection Field Function 6020(b) Assessments Have Significantly
Increased in Recent Years
We reviewed IRS Collection Activity Reports for FY 2007 through FY 2011 to identify CFf
trends for 6020(b) assessments. Figure 2 shows there has been a substantial increase in the
number of 6020(b) assessments over the last few years.
      Figure 2: RO’s 6020(b) Assessments That Entered the Collection Stream




        Source: Collection Activity Report 5000-2/242.

Since FY 2009, the number of CFf 6020(b) assessments entering the collection stream has
increased by 58 percent. Specifically, there was a 33 percent increase in the number of
6020(b) assessments from FY 2009 to FY 2010 and a 19 percent increase from FY 2010 to
FY 2011. IRS management indicated that the increase can be attributed to additional ROs hired
in FY 2009 and FY 2010. A recent report4 by the Treasury Inspector General for Tax
Administration found that between June 2009 and February 2010, the IRS hired 1,515 ROs. As
a result of the hiring initiative, and after accounting for normal attrition, the total number of ROs


4
 Treasury Inspector General for Tax Administration, Ref. No. 2011-30-039, Challenges Remain to Balance
Revenue Officer Staffing With Attrition and Workload Demands (May 2011).
                                                                                                         Page 4
                                 Collection Field Function Procedures Were Not
                                  Always Followed When Assessing Taxes on
                                  Businesses That Have Not Filed Tax Returns



increased by 580. According to IRS management, new hires typically handle more delinquent
return investigations than Taxpayer Delinquent Accounts (hereafter referred to as balance due
accounts) during the training process. This policy may increase the number of 6020(b)
assessments made because it is one of the primary enforcement tools available to ROs to address
delinquent return investigations of business nonfilers.
Our analysis of IRS data also suggests that the increase in 6020(b) assessments by ROs may be
related to increases in staffing. According to IRS Collection Activity Reports, there has been a
38 percent increase in the number of delinquent returns secured by the CFf between FY 2009 and
FY 2011. However, the number of delinquent returns secured by all Collection functions
decreased by one percent during the same time period. Therefore, the increase in delinquent
returns secured by the CFf (the function with the increased staffing) corresponds to the increase
in 6020(b) assessments.

Many balance due accounts are closed as currently not collectible (CNC) or fully
abated
After a liability is assessed under I.R.C. § 6020(b) authority and a balance is due, the first of two
balance due notices is issued to the taxpayer. Initially, a Master File notice is issued. If there is
no response, a Computer Paragraph 504, Final Notice – Balance Due, is issued. The notice
phase represents the beginning of the collection process. From a resources standpoint, resolving
tax liabilities during the notice phase is cost effective because the process is highly automated,
which helps contain administrative and personnel costs.
If a tax liability is not resolved during the balance due notice phase, the module becomes a
balance due account. The Inventory Delivery System is an application that uses specific criteria
and established business rules to select and route balance due accounts to either the Automated
Collection System, the Queue, or to the CFf for further action. However, IRS management
informed us that balance due accounts originating as 6020(b) assessments by ROs typically
deviate from this process and are worked by the original RO until the case is closed. This
deviation allows the taxpayer to work with only one IRS employee throughout the entire
collection process. ROs may also be assigned to work balance due accounts that were originally
assessed under I.R.C. § 6020(b) authority by other collection functions and employees, such as
tax examiners or the Campus Compliance Services’ Automated 6020(b) Program.
The Internal Revenue Manual (IRM)5 describes the collection procedures that ROs should utilize
when working balance due accounts. CFf employees informed us that the balance due accounts
resulting from 6020(b) assessments are treated no differently procedurally during the collection
process, nor are they given any particular priority over other balance due accounts, after being
assigned to the RO. The IRM instructs ROs to contact the taxpayer and demand full payment
when a return is received without full payment of tax, penalty, and interest.

5
    IRM 5.1.1.1 and 5.1.1.2 (Nov. 29, 2011).
                                                                                              Page 5
                              Collection Field Function Procedures Were Not
                               Always Followed When Assessing Taxes on
                               Businesses That Have Not Filed Tax Returns



Figure 3 shows that during FY 2011, the CFf closed 103,526 balance due accounts that were
assessed using I.R.C. § 6020(b) authority. This amount represents an increase of more than
163 percent since FY 2009.
              Figure 3: CFf 6020(b) Balance Due Accounts Closed by ROs




        Source: Collection Activity Report 5000-242.

CFf employees can close a balance due account in a variety of ways. From a financial and
resources perspective, the best resolution for a case is the collection of the full amount of tax,
penalty, and interest owed to the IRS. However, balance due accounts can also be closed in
other ways, such as:
       CNC.
       Installment agreement.
       Offer in compromise.
       Full abatement.
Cases closed as either CNC or full abatement can potentially affect the number of accounts
receivable reported by the IRS. A prior audit report6 noted that closing balance due accounts as
CNC is a high-risk collection activity because the balance due from the taxpayers are then at risk
of never being collected.


6
 Treasury Inspector General for Tax Administration, Ref. No. 2006-30-168, Currently Not Collectible Decisions on
Delinquent Accounts Were Appropriate; However, Closing Actions Need to Be Improved (Sept. 2006).
                                                                                                        Page 6
                            Collection Field Function Procedures Were Not
                             Always Followed When Assessing Taxes on
                             Businesses That Have Not Filed Tax Returns



Figure 4 shows that in FY 2011, 44,926 (43 percent) of the 103,526 balance due accounts
originating from 6020(b) assessments were closed by ROs as CNC.
                          Figure 4: Balance Due Accounts Closed
                             by ROs in FY 2011 (by Disposition)




             Source: IRS Collection Activity Report 5000-242.

The IRS does not collect any revenue on taxpayer’s accounts with liabilities originating from
6020(b) assessments that are fully abated. An additional 14,868 (14 percent) balance due
accounts originating from 6020(b) assessments were fully abated. The combined figures of
CNC and abated accounts indicate that the IRS did not collect any immediate payments for
59,794 (58 percent) closed balance due accounts originating from 6020(b) assessments. IRS
management informed us that 6020(b) assessments may help encourage delinquent taxpayers to
become filing compliant by submitting their own returns. IRS management also stated that many
taxpayers may ignore the delinquency notices and then later, after the assessments have been
processed, file their own return showing no tax liability. These assessments are likely to be fully
abated. However, it is important to note that the full assessment amounts were included in the
IRS’s accounts receivable inventory.
Management also advised us that many CNC closures are likely to be defunct corporations. We
analyzed a population of 6020(b) assessments made by ROs from April 1, 2010, to
March 31, 2011, that were later worked by ROs when they became balance due accounts.
Figure 5 shows that 7,968 (60 percent) of the 13,190 cases ROs closed as CNC were defunct
corporations.


                                                                                            Page 7
                              Collection Field Function Procedures Were Not
                               Always Followed When Assessing Taxes on
                               Businesses That Have Not Filed Tax Returns



       Figure 5: RO’s Balance Due Accounts Closed As CNC (by Disposition)




               Source: Our analysis of balance due accounts that originated as 6020(b)
               assessments and closed as CNC by ROs from April 1, 2010, to March 31, 2011.

IRS officials informed us that ROs may intentionally process some 6020(b) assessments on cases
likely to be closed as CNC/Defunct Corporation when there is a good indication that the Trust
Fund Recovery Penalty can be assessed and collected from the company’s responsible officers.7
Unless the return is filed and the tax is assessed, pursuit of this penalty is not possible.

Revenue Officers Followed Many of the Required Procedures for
Processing 6020(b) Assessments
The IRM8 details the procedures that ROs use for processing 6020(b) assessments. There are
specific tasks ROs must perform before and after deciding to use I.R.C. § 6020(b) authority to
prepare and process the delinquent return for the taxpayer.
We reviewed a statistical sample of 96 closed taxpayer cases where ROs completed 6020(b)
assessments from April 1, 2010, to March 31, 2011, to determine if proper procedures were
being followed. Our analysis determined there were numerous instances in which ROs followed
required procedures.




7
  We did not research subsequent Trust Fund Recovery Penalty assessment cases to determine outcomes during this
review.
8
  IRM 5.1.11 (Nov. 29, 2011).
                                                                                                        Page 8
                                 Collection Field Function Procedures Were Not
                                  Always Followed When Assessing Taxes on
                                  Businesses That Have Not Filed Tax Returns



For example, ROs:
          Conducted investigations including field visits, when appropriate.
          Determined if taxpayers were still in business.
          Determined if taxpayers paid wages during the tax period(s) in question.
          Determined if taxpayers were liable for filing the return(s).
          Specified a date for taxpayers to submit their own return(s).
However, our review also determined that ROs did not always document the basis for 6020(b)
assessments, as required, or allow taxpayers the required 30 calendar days to respond to
proposed 6020(b) assessments.

Evidence Was Not Always Available to Support the Basis of 6020(b)
Assessments
IRM procedures9 require ROs to fully document a complete explanation for the basis of the
6020(b) assessment(s) in the ICS history. The explanation should include information such as
wages paid, income tax withheld, tax deposits submitted, and calculations or other information
used to establish the correct liability for each tax period. Form 5604, Section 6020(b) Action
Sheet, is used to initiate and prepare 6020(b) returns. Procedures also state that a copy of the
ICS history documentation that explains the basis for the assessment(s) should be attached to
Form 5604. Attaching the ICS history to the form would eliminate the need to complete the
Basis for Assessment section of Form 5604.
We reviewed a statistically valid sample of 96 taxpayer cases and identified 20 (21 percent)
cases in which ROs did not document the basis of 6020(b) assessments as required. ROs did not
properly follow 6020(b) procedures to fully document the ICS history or Form 5604 with a
complete explanation for the basis of the assessment. IRS management informed us there is no
specific review process for a 6020(b) assessment or an internal control to ensure ROs are
following this procedure. If the steps taken to determine the basis of the assessment are not fully
explained and documented, there is a greater risk of an improper assessment.
IRS management attempted to recreate the missing information in the 20 cases we identified.
However, due to the lack of documentation, management was unable to recreate the basis of the
assessments in 12 (60 percent) of the 20 cases. Management was able to identify the basis from
other sources (such as Integrated Data Retrieval System research) for most of the assessments10
on the remaining eight cases. However, IRS procedures state that fully documenting the basis is


9
    IRM 5.1.11 (Nov. 29, 2011).
10
     Some of the 96 taxpayer cases in our sample had more than one assessment.
                                                                                            Page 9
                            Collection Field Function Procedures Were Not
                             Always Followed When Assessing Taxes on
                             Businesses That Have Not Filed Tax Returns



important because it could be used later if the taxpayer requests an appeal, files suit, or requests
Taxpayer Advocate Service assistance. Also, if the assessment is not properly documented and
completely explained as required, an employee would have to repeat steps originally completed
by another employee if there is any reason to later determine the basis. This practice would
result in a duplication of efforts by the IRS’s limited resources.
Based on our sample results from a population of 14,746 taxpayer cases, we estimate there are
3,072 taxpayer cases in which ROs did not have proper documentation for the basis for the
6020(b) assessment. We are 95 percent confident that the range of improperly documented cases
is between 1,872 and 4,272.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, Small Business/
Self-Employed Division, should develop an internal control to help ensure ROs properly
document a complete explanation for the basis of the 6020(b) assessment.
       Management’s Response: IRS management agreed with this recommendation and
       will initiate a change to the ICS to help ensure ROs document the required basis for the
       6020(b) assessment.

Revenue Officers Did Not Always Allow 30 Calendar Days for
Taxpayers to Respond Prior to Processing 6020(b) Returns
The Letter 1085, 30 Day Letter Proposed IRS 6020(b) Assessment, package is sent to a taxpayer
when all other efforts to secure a business return have failed. The package includes:
      A notice informing the taxpayer that there are tax periods he or she may be liable to file.
      Computer-generated returns with estimated wage and tax amounts.
      Taxpayer appeal rights.
      A return envelope.
ROs are required to mail either Letter 1085 or Letter 1616, 30 Day Letter, Proposed IRC 6020(b)
Assessment Partnership Return, along with all applicable enclosures, to the taxpayer.
Procedures instruct IRS employees to keep a copy of the letter and tax returns in the case file.
These letters inform the taxpayer that I.R.C. § 6020(b) gives the IRS authority to prepare and file
tax returns on the taxpayer’s behalf. They also advise that if the IRS does not hear from the
taxpayer within 30 calendar days from the date of the letter, the IRS will process the enclosed tax
returns that were prepared for the taxpayer.
ROs did not always follow 6020(b) procedures to allow taxpayers 30 calendar days to respond or
did not include the necessary evidence in the case file or ICS history for us to determine whether
                                                                                             Page 10
                          Collection Field Function Procedures Were Not
                           Always Followed When Assessing Taxes on
                           Businesses That Have Not Filed Tax Returns



taxpayers had been allowed the 30 calendar days. In our statistically valid sample of 96 taxpayer
cases, we identified 10 (10 percent) cases in which ROs either did not allow 30 calendar days to
pass before submitting the prepared return for processing or there was no evidence available to
determine if taxpayers were allowed the 30 calendar days. In five of these cases, we confirmed
that taxpayers were not provided the specified 30 calendar days to respond to proposed 6020(b)
assessments before the prepared returns were submitted for processing. The remaining five cases
did not contain evidence to determine whether 30 calendar days had expired before prepared
returns were submitted for processing.
IRS management informed us that there is no specific review process for a 6020(b) assessment
or an internal control to ensure ROs are following this procedure. However, if the IRS does not
allow the taxpayer 30 calendar days to respond as indicated in Letters 1085 and 1616, the
taxpayer’s rights may be violated. For example, both letters state that within 30 calendar days
from the date of the letter, if the taxpayer does not agree that the returns have been prepared
correctly, they may request a conference discussion with the person whose name and number are
given in the letter. If the taxpayer does not agree with any or all of the IRS findings presented,
then they may request a meeting or telephone conference with the supervisor of the person who
issued the findings. If the taxpayer still does not agree, they may appeal the case to the Area
Director of General Appeals.
In addition, the taxpayer may be burdened by an additional requirement to contact the IRS about
the situation. For example, if the taxpayer submitted a return prior to the expiration of the
30 calendar days and subsequently received a balance due notice as a result of the RO submitting
an early 6020(b) return, the taxpayer will have to make an additional contact with the IRS. In
addition, the IRS will have to expend additional resources to handle the contact and make the
necessary account adjustments.
Based on our sample results, from a population of 14,746 taxpayer cases, we estimate there are
approximately 1,536 taxpayers whose rights were potentially violated when ROs did not allow
taxpayers 30 calendar days to respond or did not include the necessary evidence in the case file
or ICS history to determine whether taxpayers had been allowed the 30 calendar days prior to
processing 6020(b) returns. We are 95 percent confident that the range of errors is between
633 and 2,439.

Recommendation
Recommendation 2: The Director, Enterprise Collection Strategy, Small Business/
Self-Employed Division, should develop an internal control to help ensure ROs allow taxpayers
30 calendar days to respond to the proposed assessment before submitting the prepared return(s)
for processing.




                                                                                          Page 11
                               Collection Field Function Procedures Were Not
                                Always Followed When Assessing Taxes on
                                Businesses That Have Not Filed Tax Returns



        Management’s Response: IRS management agreed with this recommendation and
        will initiate a change to the ICS to help ensure ROs allow taxpayers 30 calendar days to
        respond to the proposed assessment before submitting the prepared returns for
        processing.

Many Taxpayers Remain Noncompliant After 6020(b) Assessments
Have Been Made
The Government Performance and Results Act of 199311 establishes that Federal Government
agencies are expected to identify performance measures for program activities and compare
results of activities with measures identified. Performance measures help managers by providing
them information on how resources should be allocated to ensure effectiveness. They also help
support development and justification of budget proposals by indicating how taxpayers and
others benefit. Performance measures keep managers focused on the key goals of a program.
IRS management informed us that an important benefit of using I.R.C. § 6020(b) authority is to
improve filing compliance among business nonfilers. The impact of using I.R.C. § 6020(b)
authority to bring taxpayers into filing compliance is important for the IRS to know to help
managers make strategic decisions about the best ways to address nonfiling taxpayers. However,
management has not established a method for comparing 6020(b) business return results with
anticipated benefits. Management also informed us there have been no special projects, research
reports, or studies in the CFf to measure the impact 6020(b) assessments have had on taxpayer
behavior in subsequent period filing compliance.
To determine if the CFf’s use of I.R.C. § 6020(b) authority made an impact on subsequent filing
compliance, we identified and compared subsequent delinquent return data on taxpayers with
6020(b) assessments to taxpayers without 6020(b) assessments in Calendar Year 2008. To avoid
any bias from the impact of other enforcement actions that ROs typically use to bring taxpayers
into compliance, such as liens and levies, we only analyzed those assessments that were
stand-alone delinquent return investigations. According to IRS management, stand-alone
delinquent return investigations are comprised of taxpayers that have potential delinquent returns
due but no balance due accounts. In addition, management advised us that most taxpayer cases
being worked in the CFf have combinations of both delinquent return investigations and balance
due accounts.
Our review determined that during Calendar Year 2008, taxpayers with stand-alone 6020(b)
assessments were less compliant in subsequent years than taxpayers without 6020(b)
assessments. Figure 6 shows that 40 percent of taxpayers with 6020(b) assessments in Calendar
Year 2008 were compliant in the eight quarters (or two years) following the tax period of the


11
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 12
                            Collection Field Function Procedures Were Not
                             Always Followed When Assessing Taxes on
                             Businesses That Have Not Filed Tax Returns



6020(b) assessment. In comparison, 60 percent of taxpayers with assessments where
I.R.C. § 6020(b) authority was not used were compliant.
 Figure 6: Subsequent Filing Compliance for Stand-Alone 6020(b) Assessments
              Compared With All Other Stand-Alone Assessments




      Source: Our analysis of Calendar Year 2008 stand-alone delinquent return investigations and
      subsequent delinquencies.

These results indicate the use of I.R.C. § 6020(b) authority to secure delinquent returns may not
have influenced the taxpayers to remain compliant with filing subsequent returns. IRS
management indicated that taxpayers with assessments where I.R.C. § 6020(b) authority was not
used may be more compliant with filing subsequent returns because they were more responsive
to IRS communications (RO field visits, correspondence, etc.) and voluntarily filed their own
return in a shorter time period, prior to ROs using I.R.C. § 6020(b) authority on these taxpayers.
However, to gain a better understanding of the data results, a more in-depth study may be
needed. For example, a review of closed taxpayer delinquent investigations where the use of
I.R.C. § 6020(b) authority was considered, but not used, may provide valuable information.
Furthermore, without performance measures or a method to help determine whether 6020(b)
assessments are improving taxpayer filing compliance as expected, IRS management may be
losing an opportunity to improve the program and achieve better results. Management does not
know if the use of I.R.C. § 6020(b) authority is meeting anticipated benefits or is an effective
tool.

                                                                                                    Page 13
                         Collection Field Function Procedures Were Not
                          Always Followed When Assessing Taxes on
                          Businesses That Have Not Filed Tax Returns



Recommendation
Recommendation 3: The Director, Enterprise Collection Strategy, Small Business/
Self-Employed Division, should establish a methodology to compare actual results with
management’s anticipated benefit of improving filing compliance when I.R.C. § 6020(b)
authority is used for business taxpayers.
       Management’s Response: IRS management agreed with this recommendation and
       will request a research project to measure the effectiveness of the Collection Field
       function I.R.C. 6020(b) program on future filing compliance of business taxpayers and
       weigh the results against the ultimate case resolution to determine if any program
       changes are warranted.




                                                                                        Page 14
                                 Collection Field Function Procedures Were Not
                                  Always Followed When Assessing Taxes on
                                  Businesses That Have Not Filed Tax Returns



                                                                                     Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives were to evaluate the impact of the Small Business/Self-Employed
Division1 CFf’s use of I.R.C. § 6020(b) authority on taxpayer compliance and to determine
whether Collection function employees are using the proper procedures to assess tax liabilities.
To accomplish these objectives, we:
I.         Identified the CFf’s policies and procedures and the management strategies and measures
           for using I.R.C. § 6020(b) authority for business taxpayers.
           A. Researched and reviewed applicable IRM sections, internal guidance, management
              directives, and prior audit reports.
           B. Discussed the 6020(b) process with CFf management from the Small Business/
              Self-Employed Division’s Headquarters Office in New Carrollton, Maryland.
               1. Determined how management measures the performance of the program and
                  evaluates the measures for reasonableness.
               2. Obtained management’s feedback about any positive or negative issues affecting
                  the program and possible suggestions for improvements.
           C. Conducted a field visit to a CFf Area Office to talk with Territory and group
              managers and ROs about the 6020(b) process.
               1. Performed a walk-through of the procedures for using the 6020(b) process with
                  ROs.
               2. Obtained any desk procedures and ROs’ feedback about any positive or negative
                  issues affecting the program and possible suggestions for improvements.
II.        Evaluated the impact that 6020(b) assessments had on subsequent year filing compliance
           in the CFf.
           A. Determined the extent to which 6020(b) assessments promoted taxpayer filing
              compliance in subsequent tax periods.
               1. Obtained from the Treasury Inspector General for Tax Administration Data
                  Center Warehouse an extract of 6020(b) assessments made by ROs in Calendar
                  Year 2008 that were stand-alone Taxpayer Delinquency Investigation modules


1
    See Appendix V for a glossary of terms.
                                                                                              Page 15
                         Collection Field Function Procedures Were Not
                          Always Followed When Assessing Taxes on
                          Businesses That Have Not Filed Tax Returns



              and identified those taxpayers that had subsequent Taxpayer Delinquency
              Investigation modules over the next eight quarters (two years). We validated the
              data by verifying various data fields with the Integrated Data Retrieval System.
          2. Analyzed the data to determine subsequent filing compliance trends.
       B. Discussed analysis results and conclusions with IRS management to obtain
          concurrence.
III.   Analyzed the CFf assessment, abatement, and collection trends on cases for which the
       source of the assessment was I.R.C. § 6020(b) authority and determined if and how the
       information was being reported and used to measure the program.
       A. Identified data trends from the IRS Collection Activity Reports for FYs 2007 through
          2011.
       B. Determined the potential impact of the 6020(b) data trends on accounts receivables.
       C. Discussed conclusions with IRS management.
IV.    Determined if ROs are following proper procedures on cases selected for 6020(b)
       processing.
       A. Performed case reviews to determine if ROs are following the proper procedures and
          guidelines to prepare 6020(b) assessments on business nonfilers.
          1. Through the Treasury Inspector General for Tax Administration Data Center
             Warehouse, obtained a population of 14,746 closed taxpayer cases, of 6020(b)
             assessments made by ROs between April 1, 2010, and March 31, 2011. We
             validated the data by verifying various data fields with the Integrated Data
             Retrieval System.
          2. Reviewed a statistically valid random sample of 96 taxpayer cases from the
             population identified in Step 1. We requested from the IRS and the Federal
             Records Center 200 cases to ensure we were provided enough cases. Cases were
             reviewed in the order in which they were received from the IRS and the Federal
             Records Center. While we planned to review a random sample of 100 taxpayer
             cases, we later eliminated four cases because they did not meet the sample
             criteria.
          3. Reviewed cases and searched documentation to determine if ROs are following
             all proper procedures including:
              a. Conducting required field calls to determine if the taxpayer is still in business,
                 insolvent, or deceased.



                                                                                           Page 16
                          Collection Field Function Procedures Were Not
                           Always Followed When Assessing Taxes on
                           Businesses That Have Not Filed Tax Returns



              b. Establishing a specific date with the taxpayer to have all delinquent returns
                 submitted.
              c. Allowing 30 calendar days after the issuance of a Letter 1085, 30 Day Letter
                 Proposed IRS 6020(b) Assessment, or Letter 1616, 30 Day Letter, Proposed
                 IRC 6020(b) Assessment Partnership Return, before assessing the taxpayer’s
                 account.
              d. Using all available data sources and third-party information when calculating
                 and documenting 6020(b) assessments, including taxpayer records, State wage
                 information, information return data to help determine wages paid to
                 employees, income and Federal Insurance Contribution Act tax withheld, and
                 inflation factors if appropriate.
           4. Reviewed cases to identify any indications of fraud and the risk of fraud.
       B. Discussed case review exceptions with IRS management for concurrence.
       C. Projected the number of errors in each finding to the entire population based on the
          actual error rate, actual precision, and a 95 percent confidence level.
           1. Based on our sample results, we used the population of 14,746 taxpayer cases, an
              actual error rate of 20.83 percent, a precision of 8.14 percent, and a confidence
              level of 95 percent for the projection of cases for which ROs did not have the
              proper documentation for the basis for the 6020(b) assessment.
           2. Based on our sample results, we used the population of 14,746 taxpayer cases, an
              actual error rate of 10.42 percent, a precision of 6.12 percent, and a confidence
              level of 95 percent for the projection of cases for which ROs failed to allow the
              taxpayer 30 calendar days to respond to proposed 6020(b) assessments or for
              which no evidence was available in the case file or ICS history for us (or the IRS)
              to determine whether the taxpayer had been allowed the 30 calendar days.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: IRS policies, procedures, and practices
for ensuring that ROs in the CFf are following proper procedures on cases selected for 6020(b)
processing as well as for measuring the overall performance of the program. We evaluated these
controls by reviewing source materials, interviewing management, reviewing delinquent return
case files, and researching taxpayer accounts.


                                                                                           Page 17
                        Collection Field Function Procedures Were Not
                         Always Followed When Assessing Taxes on
                         Businesses That Have Not Filed Tax Returns



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Phyllis Heald London, Audit Manager
Julian E. O’Neal, Lead Auditor
Janis Zuika, Senior Auditor
Matthew J. Schimmel, Senior Audit Evaluator
Rebecca A. Arendosh, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 18
                         Collection Field Function Procedures Were Not
                          Always Followed When Assessing Taxes on
                          Businesses That Have Not Filed Tax Returns



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ESC
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:ESC:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 19
                          Collection Field Function Procedures Were Not
                           Always Followed When Assessing Taxes on
                           Businesses That Have Not Filed Tax Returns



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 1,536 taxpayers for whom ROs failed to allow
    30 calendar days to respond to proposed 6020(b) assessments (or no evidence was available
    in the case file or ICS history to determine whether the taxpayer had been allowed the
    30 calendar days), resulting in a potential violation of taxpayers’ rights (see page 10).

Methodology Used to Measure the Reported Benefit:
In our review of a statistically valid sample of 96 taxpayer cases for which ROs completed
6020(b) assessments during the period April 1, 2010, to March 31, 2011, we identified
10 (10 percent) taxpayer cases for which the RO did not allow 30 calendar days to expire prior to
submitting the prepared return for processing or there was no evidence available to determine if
the taxpayers were actually allowed the 30 calendar days. We initially oversampled by selecting
a random sample of 200 cases to ensure we would receive enough case files from the IRS. Cases
were reviewed in the order in which they were received from the IRS.
We projected the finding to the total population of 14,746 taxpayer cases with 6020(b)
assessments between April 1, 2010, and March 31, 2011. Based on the actual error rate of
10.42 percent, actual precision of 6.12 percent, and a 95 percent confidence level, we estimate
there are approximately 1,536 taxpayer cases for which ROs failed to allow 30 calendar days for
taxpayers to respond or evidence was not available in the case file or ICS history to determine
whether taxpayers had been allowed the 30 calendar days as required by Letter 1085, 30 Day
Letter Proposed IRS 6020(b) Assessment. We are 95 percent confident that the range of errors is
between 633 and 2,439.




                                                                                          Page 20
                           Collection Field Function Procedures Were Not
                            Always Followed When Assessing Taxes on
                            Businesses That Have Not Filed Tax Returns



                                                                                    Appendix V

                                 Glossary of Terms

Abatement – A reduction in value or amount. The IRS may make an abatement of certain taxes,
interest, penalties, fees, or additions to tax, and a taxpayer may request this using Form 843,
Claim for Refund and Request for Abatement.
Appeal – A way for a taxpayer to resolve tax controversies, without litigation, on a basis which
is fair and impartial to both the Government and the taxpayer.
Assessment – A determination by the IRS that an amount of tax (including penalty, interest, etc.)
is owed by the taxpayer.
Automated 6020(b) Program – The Automated 6020(b) Program is a business nonfiler program
that handles employment tax returns with proposed tax liabilities between $250 and $1,500.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Calendar Year – The 12-consecutive-month period ending on December 31.
Campus Compliance Services – The organization that manages and implements strategies
pertaining to the Collection and Examination programs for the IRS.
Collection Field function – The function in the Area Offices consisting of ROs who handle
personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Currently Not Collectible – If, after taking all steps in the collection process, it is determined
that an account receivable is CNC, it should be so reported in order to remove it from active
inventory.
Data Center Warehouse – A centralized storage and administration of files that provides data
and data access services of IRS data.
Defunct Corporation – The IRS defines a corporation as defunct when it is no longer in
operation and all assets have been dispersed, or when it has been dissolved under State
receivership proceedings or other State dissolution proceedings, or when it is a limited
partnership where the partnership agreement limits the liability of the limited partners under
local law and the trust fund recovery penalty is considered.
Delinquent Return – A tax return that a taxpayer does not file with the IRS by the due date
(including extensions) for any year in which a filing requirement exists.


                                                                                            Page 21
                           Collection Field Function Procedures Were Not
                            Always Followed When Assessing Taxes on
                            Businesses That Have Not Filed Tax Returns



Employment Tax Returns – Various Form 940 return series (primarily Form 940, Employer’s
Annual Federal Unemployment (FUTA) Tax Return, and Form 941, Employer’s QUARTERLY
Federal Tax Return) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Excise Tax Return – Form 720, Quarterly Federal Excise Tax Return, is used to report and pay
certain taxes, such as those on transportation and fuel.
Federal Insurance Contribution Act Taxes – Taxes on earned income paid into Social
Security and Medicare.
Installment Agreement – An agreement between the IRS and a taxpayer for the taxpayer to
make monthly payments to the IRS when the taxpayer is unable to fully pay his or her tax debt in
one payment.
Integrated Collection System – An information management system designed to improve
revenue collections by providing ROs access to the most current taxpayer information, while in
the field, using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – Contains the policies, procedures, instructions, guidelines, and
delegations of authority which direct the operation and administration of the IRS.
Inventory Delivery System – An application that uses specific criteria and established business
rules to select and route balance due accounts to either the Automated Collection System, the
Queue, or to the CFf for further action
Levy – A legal seizure of property to satisfy a tax debt. The IRS may collect outstanding taxes
from sources such as bank accounts and wages, as well as other sources.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Module – Part of a taxpayer’s account that reflects tax data for one tax class, e.g., individual or
business, and one tax period. For example, a taxpayer filed 12 Forms 941 and three Forms 940
within a three-year period. The taxpayer has only one account on the Master File but
15 modules.
Nonfilers – Individual and business taxpayers that have been identified as liable to file a tax
return but have not filed a tax return by the return due date or extended due date.
Offer in Compromise – An agreement between a taxpayer and the Government that settles a tax
liability for payment of less than the full amount owed.

                                                                                             Page 22
                           Collection Field Function Procedures Were Not
                            Always Followed When Assessing Taxes on
                            Businesses That Have Not Filed Tax Returns



Partnership Tax Return – Form 1065, U.S. Return of Partnership Income, is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – Employees in the Examination function who conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes, e.g., excise tax returns.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
Automated Collection System.
Small Business/Self-Employed Division – The IRS organization that services self-employed
taxpayers and small businesses by educating and informing them of their tax obligations,
developing educational products and services, and helping them understand and comply with
applicable tax laws.
Tax Period – The period of time for which a return is filed. The IRS uses a six-digit code to
indicate the end of the tax period for a given return. The first four digits represent the year and
the next two digits represent the month.
Taxpayer Advocate Service – An independent organization within the IRS whose employees
assist taxpayers that are experiencing economic harm, are seeking help in resolving tax problems
that have not been resolved through normal channels, or believe that an IRS system or procedure
is not working as it should.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One Taxpayer
Delinquency Investigation exists for all tax periods.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate Taxpayer
Delinquent Account exists for each tax period.
Trust Fund Recovery Penalty – Assessments made against responsible business officers of a
company that has not paid the taxes it withholds from employees’ wages, such as Social Security
or individual income tax withholding to the IRS.




                                                                                             Page 23
         Collection Field Function Procedures Were Not
          Always Followed When Assessing Taxes on
          Businesses That Have Not Filed Tax Returns



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
Collection Field Function Procedures Were Not
 Always Followed When Assessing Taxes on
 Businesses That Have Not Filed Tax Returns




                                                Page 25
Collection Field Function Procedures Were Not
 Always Followed When Assessing Taxes on
 Businesses That Have Not Filed Tax Returns




                                                    




                                                Page 26
